LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

August 30, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

JOHNSON & JOHNSON AND JOHNSON & JOHNSON CONSUMER COMPANIES, INC.
V. LYNN FITCH, ATTORNEY GENERAL OF THE STATE OF MISSISSIPPI, EX REL.
THE STATE OF MISSISSIPPI

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on August 30,
2021, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Lynn Fitch
Attorney General of Mississippi
P.O. Box 220
Jackson MS 39205

Governor Tate Reeves
550 High St.
Sillers Building, 19th Floor
Jackson, MS 39201

This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 30th day of August 2021.

